Memorandum from the Inspector General, ET 4C-K



June 23, 2009

TVA Board of Directors

FINAL REPORT – INSPECTION 2007-11399 – REVIEW OF TVA'S FINANCIAL
PERFORMANCE



Attached is the final report which answers the basic question of "How is TVA doing in
regard to financial performance." This report incorporates formal comments on a draft of
this report, which were provided by Kimberly S. Greene, Chief Financial Officer and
Executive Vice President, Financial Services.

This review is the second in a series that will provide an independent assessment of
TVA's performance in key areas. The Office of the Inspector General will issue reports
annually on TVA's financial performance as well as its operational, environmental, and
customer relations performance. These reports are intended to give an objective
assessment to the TVA Board of Directors and Congress regarding TVA's performance
and to highlight significant challenges facing TVA.

This report will be placed on our Web site and delivered to Members of Congress. Please
advise us of any sensitive information in this report that you recommend be withheld.

We would be happy to brief you on this report. If you have specific questions about this
report, please contact Ben R. Wagner, Deputy Inspector General, at (865) 633-7500 or
Robert E. Martin, Assistant Inspector General, Audits and Inspections, at (865) 633-7450.



Richard W. Moore

JSB:JP
Attachment
cc (Attachment):
     Kimberly S. Greene, WT 7B-K
     Peyton T. Hairston, Jr., WT 7B-K
     Tom D. Kilgore, WT 7B-K
     John E. Long, Jr., WT 7B-K
     Emily J. Reynolds, OCP 1L-NST
     OIG File No. 2007-11399
            Tennessee Valley Authority
            Office of the Inspector General


Inspection Report



REVIEW OF TVA'S
FINANCIAL
PERFORMANCE



                        Inspection 2007-11399
                                 June 23, 2009
     Office of the Inspector General                                                           Inspection Report


  
                                            INTRODUCTION
  
     What We Are Trying To Accomplish
     This is the second in a series of inspections that seek to provide a perspective on
     the question, "How is TVA doing?" Although there are existing sources to
     answer that question, those sources often tend to be either hyper technical or
     anecdotal. Some sources require interpretation from TVA management. Also,
     the primary source of relevant information needed to assess TVA's financial
     performance―TVA's reports to the Securities and Exchange Commission
     (SEC)―can be difficult to understand. These reports are lengthy and contain
  
     detailed technical information. In fact, as recently as August 2008, an SEC
     Advisory Committee noted that "many individual investors may find a company's
  
     periodic reports overly complex and detailed."1 We are attempting to fill the gap
     that exists in the information available for most TVA stakeholders to be able to
     understand how TVA "stacks up" against other utilities.
  
     What We Are Evaluating
  
     We will be addressing four key strategic areas including financial health,
     operational performance, environmental stewardship, and customer relations.
 
     We believe that if TVA's performance in these areas is documented and
     understood, the question "How is TVA doing?" will have been answered. Our
     reviews are intended to give an objective evaluation of TVA's performance and to
     present, as appropriate, the significant management challenges facing TVA. By
     doing this work, the Office of the Inspector General (OIG) adds value to
     stakeholders by objectively assessing key issues confronting TVA. The
     "audience" for the OIG is primarily the TVA Board, Congress, and residents of
     the Tennessee Valley.

     Why the Office of the Inspector General Should Do These Reviews

     There are three reasons why this work should fall to the OIG: (1) We have the
     expertise to do it. For over 20 years the OIG has been scrutinizing TVA
     programs and operations, and we have developed a cadre of professionals
     immersed in the analysis of utility work. Simply put, our people know TVA;
     (2) we have the independence to do it. The OIG does not have a stake in the
     outcome of any report we write. We are neither fans nor foes of TVA
     management. Whether TVA ranks high or low in comparison to other utilities
     does not in any way affect the OIG. We have complete discretion to look
     wherever we want and to report the facts as we find them; and (3) we print what
     we do. Our work is public and posted on our Web page―the good, the bad, and


     1
         Final Report of the Advisory Committee on Improvements to Financial Reporting to the United States
         Securities and Exchange Commission, August 1, 2008, page 3.
     Inspection 2007-11399                                                                               Page 1
    Office of the Inspector General                                                                Inspection Report


    everything in between. Transparency and accountability should be the hallmark
 
    of a government agency. Our very public work makes that more likely for TVA.

    Why Now?
 
    The United States (U.S.) is facing an energy crisis of historic proportions and
    when coupled with the recent national economic instability across the U.S., this
    combination presents unique challenges. Congress is currently grappling with
    issues that will directly impact TVA and other utility companies. The financial
 
    soundness of TVA is perhaps more important now than at any other time in
    history.
 
    Moreover, TVA is in the throes of making strategic decisions that will affect
    generations of Valley residents. Historically, TVA has a spotty record in
    evaluating market conditions and investing in the right generation mix. The
    current financial status and performance metrics of TVA should be all the more
    transparent to its stakeholders. A high-performing, competitive, and forward-
    thinking TVA is more critical now than ever before.2
 
    Why This Particular Report on Financial Performance?
 
    Financial performance is a prime determinate of sustainable success. The
 
    strategic challenges facing TVA require a sound, long-term financial plan and
    vision. The key has always been and will always be accountability through
    management, financial reporting, and operational controls.

    How We Did This Report

    This inspection report will provide a high-level evaluation of TVA's financial
    performance. Specifically, we reviewed TVA's strategic goals and objectives
    focusing our evaluation on the three primary drivers: maintaining adequate
    revenue, making sound capital investments, and containing costs. In conducting
    this review, we: (1) assessed key performance measures and their alignment
    with the key strategic objectives, (2) evaluated TVA's results relative to targets
    and available benchmark information, and (3) identified key management
    challenges that could affect how successful TVA is in achieving these strategic
    objectives.




    2
        The TVA Board approved construction of an 880-megawatt gas-fired power plant in northeast Tennessee
        and deferred two planned construction projects to upgrade gas plants in west Tennessee and northeast
        Mississippi at the June 2009 Board meeting held in Young Harris, Georgia. While the OIG will review
        TVA's cost benefit analysis used to make this decision, that will be the subject of a future report, and the
        impact of that decision on TVA's financial strength is not a part of this report.
    Inspection 2007-11399                                                                                    Page 2
    Office of the Inspector General                                                      Inspection Report


    Key factors we considered, where appropriate, were how TVA's results compare
 
    to (1) those of others and (2) the goals TVA sets for itself, as shown below. We
    also considered TVA initiatives for improving future performance.
 
 
                                      4-5 Star                2-3 Star                   1 Star
         RESULTS
                                       Good                     Fair                     Poor

 
     How do TVA's           •   Measured results      •   Measured results       •   Measured results
     results compare            compare favorably         compare favorably          compare favorably
     to (1) those of            with peer group for       with peer group for        with peer group for
     other utilities and        most of the key           several of the key         few of the key
     (2) the goals it           metrics.                  metrics.                   metrics.
     sets for itself?       •   Measured results      •   Measured results       •   Measured results
                                achieve TVA's             achieve a portion of       do not achieve
                                goals.                    TVA's goals.               TVA's goals.
 
    More information regarding our objectives, scope, and methodology can be found
    in Appendix 1. We requested and received from the TVA Chief Financial Officer
    comments on a draft of this report. The comments are included in Appendix 2 to
    this report. Management expanded on points we made in various instances and
    disagreed with our assessment in certain areas. We made changes to the final
    report to clarify certain matters and to provide context suggested by TVA
    management. However, these changes did not affect our conclusions about
    TVA's financial performance. Our assessment and response to TVA
    management's comments are included in Appendix 3 to this report.




    Inspection 2007-11399                                                                          Page 3
    Office of the Inspector General                                                               Inspection Report


 
                                              BACKGROUND
 
    TVA operates the nation's largest public power system. In 2008, TVA provided
    electricity to 52 large industries, 6 federal agencies, and to 159 distributor
    customers that serve nearly 9 million people in seven southeastern states. TVA
    generates almost all of its revenues from the sale of electricity and, in 2008,
    revenues from the sale of electricity totaled $10.3 billion.3 As a wholly owned
    agency and instrumentality of the U.S., however, TVA is different from other
    electric utilities in a number of ways. A few of the more distinguishing features
    include the:
 
    o Defined Service Area – TVA has a defined service area established by
      federal law. Subject to certain minor exceptions, TVA may not, without
 
      specific authorization from the U.S. Congress, enter into contracts which
      would have the effect of making it, or the distributor customers of its power, a
      source of power supply outside the area for which TVA or its distributor
      customers were the primary source of power supply on July 1, 1957.
    o TVA Board's Rate Authority – Typically, an investor-owned utility is
      regulated by a public utility commission which approves the rates the utility
      may charge. TVA, however, is self-regulated with respect to rates similar to
 
      other publically owned utilities. The TVA Act gives the TVA Board sole
      responsibility for establishing the rates TVA charges for power. In setting
      TVA rates, the TVA Board is charged by the TVA Act to have due regard for
      the objective that power be sold at rates as low as feasible.4




    3
        TVA had $130 million in other revenues in addition to the $10.3 billion from sales of electricity. Beginning
        October 2006, certain items previously considered revenue from sales of electricity were reclassified as
        other revenue including delivery point charges, administrative charges, and customer charges.
        Additionally, certain items previously considered revenue from other revenue were reclassified as other
        income. These items are not directly associated with revenue derived from electric operations but are
        associated with the operation of service organizations which provide environmental and maintenance and
        testing services.
    4
        The TVA Act specifies that TVA is to charge rates for power which will produce gross revenues sufficient
        to provide funds for (1) operation, maintenance, and administration of the power system; (2) payments to
        states and counties in lieu of taxes; (3) debt service on outstanding indebtedness; (4) payments to the
        U.S. Treasury in repayment of and as a return on the power facilities' appropriation investment; and
        (5) such additional margin as the TVA Board may consider desirable for investment in the power system
        assets, retirement of debt, and other purposes connected with TVA's power business.
    Inspection 2007-11399                                                                                    Page 4
    Office of the Inspector General                                                                 Inspection Report


    o Sources of Funding – TVA, unlike investor-owned power companies, is not
 
      authorized to raise capital by issuing equity securities. TVA relies primarily on
      cash from operations and proceeds from power program borrowings to fund
      its operations. The TVA Act authorizes TVA to issue bonds, notes, and other
      evidences of indebtedness (collectively, "bonds") in an amount not to exceed
      $30 billion at any time. As of September 30, 2008, TVA's total bonds, notes,
      and other obligations were $25.1 billion.5
 
    o Required Stewardship Activities – TVA's mission includes managing the
 
      United States' fifth largest river system, the Tennessee River and its
      tributaries, to provide, among other things, year-round navigation, flood
      damage reduction, affordable and reliable electricity, and, consistent with
 
      these primary purposes, recreational opportunities, adequate water supply,
      improved water quality, and economic development.
 
    TVA published a Business Education Series to help employees better
    understand TVA and their role in helping the company achieve its strategic
    objectives. In discussing the "Big Picture," questions applicable to where TVA
    revenue comes from, where it goes, and what does this mean were answered.
 
    The questions and answers in the Business Education Series included:
 
    How does TVA generate cash?
 
    •     By selling power to power distributors and direct-served customers.

    •     By selling power through power exchange agreements.

    •     By issuing bonds to pay for debt retirement or capital investments.

    What does TVA use this cash for?

    •     Fuel (e.g., coal, uranium, and natural gas), materials/supplies, and services
          needed to run the business.

    •     Payroll and employee benefits, both for the power business and river
          stewardship.

    •     Interest and payments on debt.

    •     Payments in lieu of taxes to the states and counties where TVA does
          business or owns power property.


    5
        Specifically, TVA had (1) $20.4 billion in long-term bonds and notes outstanding of various final maturities,
        (2) $2.2 billion in short-term discount notes and current maturities of long-term debt, and (3) $2.5 billion of
        other financing obligations outstanding including energy prepayment and lease/leaseback obligations.
        The amount of TVA's bonds outstanding has been reduced by about $5 billion since September 30, 1996,
        when the end-of-year balance of outstanding bonds peaked.
    Inspection 2007-11399                                                                                      Page 5
        Office of the Inspector General                                         Inspection Report


        •   Capital expenditures to maintain plant and equipment and to fund
            investments in new generating plants and clean-air equipment.

        What does all of this mean to TVA?
  
        •   "Prosperity and excellent quality of life in the Tennessee Valley create
            continuing demand for electricity, generating more revenue for TVA. TVA
            must be financially healthy to achieve excellence in business performance
            and public service."
  
        Financial Performance Strategic Objective
  
        According to the 2007 TVA Strategic Plan, TVA's strategic objective for financial
        performance is to: "Adhere to a set of sound guiding financial principles to
        improve TVA's fiscal performance." According to the Plan, critical success
        factors include:
  
        •   Applying sound economic and financing practices to new investments.
  
        •   Paying financing obligations before assets are fully depreciated.
  
        •   Strengthening TVA's balance sheet by improving the ratio of financing
            obligations to total assets.
 

        •   Improving TVA's cash return on total assets in order to service debt, preserve
            existing assets, reinvest in new assets, and improve environmental
            performance.

        •   Achieving top-quartile performance in non-fuel operation and maintenance
            (O&M) expenses and then hold increases to be less than unit sales growth
            (kWhs).




        Inspection 2007-11399                                                             Page 6
     Office of the Inspector General                                         Inspection Report


     As shown in Figure 1, TVA currently has three performance metrics in place to
     monitor TVA's performance toward successful implementation of its strategy.
  
     Figure 1. TVA Financial Performance Measures.
  
              Measures                                      Definition
      Total Financial                  Measure of debt-like obligations compared to total
      Obligations/Asset Value          assets. Lowering debt-like obligations over the
                                       long term will produce a more flexible cost
  
                                       structure, allowing TVA to react more
                                       advantageously in the changing power market.
  
      Earnings Before                  Measure of profitability and return on assets.
      Interest, Taxes,                 EBITDA is a good measure to evaluate
      Depreciation &                   profitability, and this measure allows TVA to
      Amortization                     compare its performance against the industry and
      (EBITDA)/Asset Value             evaluate trends over time.
      TVA Non-Fuel O&M                 Measure of the most significant controllable
      ($/MWh Sales)                    component of TVA's total costs and represents the
  
                                       non-fuel O&M costs per MWh sales.
  
     Source: TVA 2008 Balanced Scorecard.
 




     Inspection 2007-11399                                                             Page 7
     Office of the Inspector General                                       Inspection Report


 
  
 
  
                                 SUMMARY CONCLUSIONS
 
  
 
     In our judgment, TVA's overall financial performance for this assessment period
     was adequate; however, the agency faces several significant financial
     challenges, some of which recently emerged. This conclusion is based on our
     analysis of TVA's financial health in three areas: (1) maintaining adequate
     revenues, (2) making sound capital investments, and (3) containing costs. In
     summary:
  
     •   TVA's ability to set its own rates and the implementation of a fuel cost-
         adjustment clause provides flexibility to help maintain adequate revenues to
  
         cover costs. Additionally, TVA operates in a service area that is largely free
         from competition and has a large and diverse customer base.
  
     •   The electric utility industry is a very capital intensive one requiring TVA to
         make large-scale capital investment decisions. TVA currently projects annual
         capital spending of more than $2 billion per year through 2011 and about
         $2.9 billion in 2012. These investments pertain to new generation and
  
         transmission assets, environmental requirements, and existing assets that are
         aging and need regular upgrades to keep running. TVA has made certain
         investment decisions in the past that did not pay off. For example, TVA
 
         began a significant nuclear plant construction program in 1966 to meet
         projected system load growth that did not materialize. The construction
         program was largely abandoned over time due to the less-than-projected load
         growth. TVA is seeking to improve its capital investment decisions and the
         financial performance of its capital assets. TVA's ability to make these large
         investments will be a challenge given its financing structure and legislative
         debt ceiling. TVA is not allowed to raise financing by issuing equity securities
         but instead must rely on operating revenues and debt financing. According to
         TVA management, one of the factors TVA considers in making investment
         decisions is its investment in non-operational nuclear assets that were not
         completed and may provide unique, lower cost investment options for TVA in
         meeting load growth (e.g., the Browns Ferry Nuclear Plant (BFNP) Unit 1
         restart, Watts Bar Nuclear Plant (WBNP) Unit 2, and Bellefonte Nuclear Plant
         (BLNP).

     •   TVA is attempting to reduce certain costs to improve its financial position. It
         fares poorly when compared to other electric utilities with respect to non-fuel
         O&M costs. TVA is seeking to reduce non-fuel O&M costs but has made
         limited progress to date. TVA has also focused on reducing interest costs as
         a percentage of revenues and has made progress in doing so in recent years.




     Inspection 2007-11399                                                           Page 8
    Office of the Inspector General                                                             Inspection Report


    •     It is important to note that TVA faces many significant management
          challenges in generating effective financial performance results. Recent
          events negatively affecting TVA financially include a wet coal fly ash spill at
          the Kingston Fossil Plant,6 declining power sales due to a downturn in the
          economy, a court ruling on a lawsuit brought by the state of North Carolina,
          and significant losses on accounts established to fund retirement and asset
          decommissioning. In addition, we have included in this report discussions of
          the necessity to manage commodity price, investment price, credit, and
          capital requirement risks, and the risk that interest rates might rise. In
 
          addition, while TVA's bond rating is based primarily more on its federal ties
          than its financial position, TVA management has identified maintaining the
 
          AAA bond rating as a risk factor in its 2008 U.S. SEC Annual Form 10-K.

 
 
 
 
 
 
 
 




    6
        As has been widely reported in the media, on December 22, 2008, a dike failed at Kingston, allowing
        approximately five million cubic yards of water and coal fly ash to flow out onto approximately 300 acres,
        primarily Watts Bar Reservoir and shoreline property owned by the U.S. and managed by TVA. TVA had
        originally estimated that 50 acres of property not managed by TVA had been affected by the spill. Fly ash
        is a by-product of a coal-fired plant and, according to the Tennessee Department of Health, may contain
        the following metals: arsenic, beryllium, cadmium, chromium, lead, selenium, thallium, and vanadium.
        See infra for a discussion of the estimated cost of this spill to TVA.
    Inspection 2007-11399                                                                                  Page 9
    Office of the Inspector General                                        Inspection Report


    The following discussion provides the basis for our conclusions.
 
 
                  Maintaining Adequate Revenue (4 Star)
 



    TVA's performance has been good in this regard. Unlike the typical electric
    utility, TVA has the ability to set its own rates. It also implemented a fuel cost-
    adjustment clause in fiscal year (FY) 2007 which provides the flexibility to help
 
    maintain adequate revenues to cover costs. In addition, TVA operates in a
    service area where competition is limited and has a large and relatively stable
 
    customer base. However, recent events such as the Kingston coal fly ash spill,
    significant losses on accounts established to fund retirement and asset
    decommissioning, and a downturn in the economy affecting power sales will
    severely test TVA's ability to generate adequate revenues.
    TVA Has Rate Setting Flexibility
 
    Typically, a utility is regulated by a public utility commission which approves the
 
    rates the utility may charge. In contrast, TVA is self-regulated with respect to
    rates. The TVA Act gives the TVA Board sole responsibility for establishing the
 
    rates TVA charges for power. These rates are not subject to judicial review or
    review or approval by any state or federal regulatory body.

    The Act requires that TVA charge rates that produce sufficient revenues to
    provide funds for operation, maintenance, and administration of its power
    system; make payments to states and counties in lieu of taxes; make debt
    service payments; make payments to the U.S. Treasury in repayment of previous
    appropriations invested in TVA's power system plus a return on that investment;
    and allow an additional margin for investment in power system assets and for
    other purposes connected with TVA's power business. In setting TVA's rates
    however, the TVA Board is required by the TVA Act to have due regard for the
    objective that power be sold at rates as low as feasible.

    On July 28, 2006, the TVA Board of Directors approved a fuel cost adjustment to
    be used quarterly to adjust TVA's rates to reflect forecasted changing fuel and
    purchased power costs. It was implemented in FY 2007 and first impacted rates
    on January 1, 2007. This fuel cost adjustment provides flexibility to help maintain
    adequate revenues to cover costs and help manage the volatility of fuel and
    purchased power costs. It allows TVA to reconcile its forecasts for fuel and
    purchased power costs with the actual costs. In assessing an electric utility,
    Standard & Poor's considers a utility's ability to pass along higher fuel costs to
    customers a key factor.




    Inspection 2007-11399                                                          Page 10
    Office of the Inspector General                                       Inspection Report


    The fuel cost adjustment is part of consumer power bills. It can be either a
 
    charge or a credit, depending on quarterly increases or decreases in fuel and
    purchased power costs. Key factors that affect fuel and purchased power costs
    are the weather and changes in prices for various fuels. According to TVA
    officials, many utilities, including most neighboring TVA's service area, use
    similar rate adjustment mechanisms.

    The Kingston coal fly ash spill will exert significant financial pressure on TVA.
    According to its first quarter 2009 10-Q filing with the SEC,7 TVA has begun to
 
    estimate the cost associated with the associated cleanup and recovery
    operations. According to an update presented by the Kingston Recovery
    Executive dated June 8, 2009, the estimated cost ranges from about $675 million
 
    to about $975 million, depending on the long-term disposal options. As of
    March 31, 2009, according to TVA's second quarter filing with the SEC,8 TVA has
    recognized a charge of $675 million for the six months ended March 31, 2009, in
    connection with the current expected cleanup costs related to the event. Costs
    incurred through March 31, 2009, totaled $77 million. The $675 million expense
    currently includes, among other things, a reasonable estimate of costs to contain
    the cenospheres, perform sampling and analysis, construct the weir and dike,
 
    and the low end of an estimated range to remove an estimated 5 million cubic
    yards of ash. The cost of removal is in a large part dependent on the final
    disposal plan.
 
    In addition, the value of assets held in TVA's retirement and asset
    decommissioning funds has dropped dramatically as financial markets have
    declined. The assets in TVA's retirement system declined by almost $1.5 billion
    for the six months ended March 31, 2009. Because of this decline TVA may
    need to make additional contributions to the retirement system in the future. In a
    special called meeting on June 8, 2009, The TVA Retirement System Board
    voted to recommend a contribution by TVA to the System of $300 million for
    fiscal year 2010. This has been communicated to TVA, and they are currently
    reviewing the request. In addition, for the same six-month period, TVA's nuclear
    decommissioning fund declined by $240 million, which may require TVA to make
    additional contributions to its nuclear decommissioning trust to meet regulatory
    funding requirements. TVA does not anticipate making significant changes in its
    basic investment policies as a result of current market conditions.




    7
        TVA Form 10Q for the quarterly period ending December 31, 2008.
    8
        TVA Form 10Q for the quarterly period ending March 31, 2009.
    Inspection 2007-11399                                                         Page 11
    Office of the Inspector General                                                            Inspection Report


    Legislative Provisions Limit TVA's Exposure to Competition
 
    According to Standard & Poor's, the extent to which an electric utility is shielded
    from competition is a key consideration in analyzing a utility's financial prospects.
    Certain provisions of law limit direct wholesale competition between TVA and
    other electric utilities. One provision is called the "fence," and one is called the
    "anti-cherry picking" provision.
 
    The TVA Act was amended in 1959 to establish what is commonly referred to as
 
    the TVA "fence," which generally prohibits TVA from entering into contracts to
    sell power outside the service area that TVA and its distributors were serving on
    July 1, 1957.
 
    The Energy Policy Act of 1992 provides TVA with certain protections from
    competition called the "anti-cherry picking" provision. This Act exempts TVA
    from having to allow other utilities to use its transmission lines to transmit power
    to customers within TVA's service area.
 
    However, TVA is subject to some forms of indirect competition. For example,
 
    TVA has no protection against its industrial customers relocating outside its
    service area or businesses deciding not to move to its service area for reasons
    related to the cost of power. In addition, customers can decide to generate their
 
    own power, and distributors on the TVA boundary have the ability to purchase
    from another supplier. While in actuality all TVA customers have the ability to
    purchase power from other providers, as stated above, TVA does not have to
    provide transmission service for the purpose of delivering power within its service
    area for other providers.

    TVA Has a Large and Diverse Customer Base

    TVA has a large and diverse customer base. As of March 2009, it primarily sells
    power at wholesale to 158 distributor customers9 consisting of municipalities and
    cooperatives that resell the power at a retail rate to nearly 9 million people in
    seven southeastern states. In FY 2008, 83 percent of TVA's revenue was
    attributed to these sales. TVA also currently sells power to (1) 58 directly served
    industries and federal facilities and (2) 12 exchange power customers (electric
    systems that border TVA's service area) with which TVA has entered into
    exchange power arrangements.




    9
        Monticello EPB ("MEPB") provided the required five-year notice to terminate its TVA power contract on
        November 20, 2003. As a result, it was no longer a distributor of TVA power effective midnight on
        Thursday, November 20, 2008. With the departure of MEPB, TVA serves 158 power distributor
        customers.
    Inspection 2007-11399                                                                               Page 12
    Office of the Inspector General                                                        Inspection Report


    Operating revenues by customer type for FYs 2005–2008 are shown in Figure 2.
 
    Figure 2.
 
                                  Operating Revenues by Customer Type
                                    for the Years Ended September 30
                                                (in Millions)

                                              2008            2007             2006            2005
    Municipalities and cooperatives         $    8,659      $    7,847       $    7,659      $    6,539
    Industries directly served1                  1,472           1,221            1,065             961
    Federal agencies and other
    Federal agencies directly served1              108                95             103               86
    Off-system sales                                13                17              13               95
       Subtotal                                 10,252             9,180           8,840            7,681
    Other revenues                                 130               146             143              101
       Total operating revenues             $   10,382      $      9,326     $     8,983     $      7,782
 
    Source: TVA Form 10K Pursuant to Section 13, 15(d), or 37 of the Securities
            Exchange Act of 1934, for the FY ended September 30, 2008.
 
    Note:
    1
      "In this table, sales to industries directly served are included in Industries directly served, and
      sales to federal agencies directly served and to exchange power customers are included in
      Federal agencies and other."
 

    The downturn in the nation's economy has had an impact on TVA's energy sales
    in recent months. According to TVA's first quarter 2009 10-Q filing with the SEC,
    this downturn has resulted in less demand for power by certain customer types.
    In particular, some customers directly served by TVA have reduced production in
    response to the economic downturn. For the quarter ended December 31, 2008,
    TVA's energy sales to industries directly served declined by almost 9 percent
    compared to the same period the previous year, while energy sales to
    municipalities and cooperatives increased by less than 1 percent. In December
    2008, TVA revised its forecast of total 2009 energy sales; the revised forecast is
    for 5 percent lower sales for the year than initially forecast.

    According to TVA management, "The effects of the economic downturn are
    resulting in less demand for electric power. For the six months ended March 31,
    2009, directly served industrial sales were down approximately 14.9% compared
    to the same period in the prior year, while municipal and cooperative sale
    experienced a 3.1% decline. TVA's total sales from electricity for the six months
    ended March 31, 2009, were down 5.6% from the same period in the prior year.
    TVA continues to revise its forecast for 2009 fiscal year energy sales."




    Inspection 2007-11399                                                                          Page 13
    Office of the Inspector General                                      Inspection Report


    As shown in figure 3, previous economic downturns deeply impacted TVA's
 
    energy sales (in gigawatt hours – gWh). TVA raised its rates in the early 1980s
    and in doing so was able to offset the decrease in energy sales. However since
    that time economic downturns (depicted as shaded areas in the figure) have
    negatively impacted TVA's revenues. TVA's economist informed us that the TVA
    service region is more dependent on manufacturing employment than the overall
    U.S. economy because manufacturing accounts for 16 percent of the region
    non-farm employment as compared to 10 percent for the U.S. as a whole.
    Therefore, recessions tend to hurt the TVA service region (and TVA's energy
 
    sales) deeper than the U.S. as a whole.
 
    A Standard & Poor's Ratings Services report issued March 4, 2009, states that
 
    the economic downturn will create the most immediate problems for public power
    and electric cooperatives. According to the report, the utilities most at risk are
    those with large industrial loads. The report states that as manufacturers shut
    down facilities or cut production, electricity demand decreases, and unless
    utilities' managements take action to offset lower demand, even the most diverse
    power generators may not be able to achieve their budgeted margins.
 
    Figure 3. TVA's gWh Sold, Revenue, and U.S. Recessions.
 
 
 




    Inspection 2007-11399                                                        Page 14
    Office of the Inspector General                                                            Inspection Report


    Figure 4 shows TVA's gWh sold to all business accounts over the past
 
    24 months (through January 2009). The chart uses weather-normalized gWh
    sold and includes TVA's direct serve industrial customers plus commercial and
    industrial customers served through the municipal and cooperative distributors.
    The figure indicates that the current recession is already having a significant
    impact on TVA.

    Figure 4. TVA's gWh Sold to Business Accounts, Last 24 Months.
 
 
 
 
 
 
 
 
 
 
 


    Together, this historical data indicates that TVA is facing a formidable challenge
    in maintaining adequate revenue in future years.

    One of TVA's key means of focusing on its income statement and evaluating its
    financial performance is by measuring its return on assets. It does so by
    calculating earnings to asset value ratio. According to TVA documentation,10 this
    metric allows TVA to compare its performance to the industry and evaluate
    trends over time. This measure is part of TVA's Winning Performance incentive
    plan11 and is calculated by dividing earnings before interest, taxes, depreciation,
    and amortization (EBITDA) by total assets. It shows the amount of revenue
    generated by a company's assets.




    10
         "Winning Performance: TVA Balanced Scorecard," July 2008.
    11
         As noted in TVA's "Winning Performance Team Incentive Plan," FY 2008, the Winning Performance
         incentive plan is a performance management program designed to promote teamwork, focus on high
         performance, and motivate and reward employees for achieving strategic objectives and critical success
         factors. A key component of the plan is the Balanced Scorecard. The plan is based on the idea that
         operational improvements, reduced costs, and improved revenues can be achieved by applying
         management focus and offering monetary incentives. The Balanced Scorecard is the primary tool for
         identifying and communicating the incentives to TVA's workforce. Through the incentive plan, the
         Balanced Scorecard provides the basis for a lump-sum payout to eligible employees not part of the
         Executive Annual Incentive Plan.
    Inspection 2007-11399                                                                               Page 15
    Office of the Inspector General                                                           Inspection Report


    As shown in Figure 5, TVA has performed competitively on the earnings to asset
 
    value ratio in comparison to other electric utilities.

    Figure 5. TVA's EBITDA to Asset Value Ratio Compared to Eight Other
              Electric Utilities for the 3-Year Period 2005–2008.


 
 
 
 
 
 
 
 
 
 
 
 


    Source: Developed by OIG from entities' SEC 10-K filings.

    As we noted in our separate inspection report on TVA's performance in the area
    of customer relations,12 TVA's electricity rates are competitive. For the
    12 months ended September 2007, they were (1) 24 percent below the national
    average, (2) below the median when compared with neighboring utilities,13 and
    (3) at the median when compared to other utilities within one wheel14 of TVA.
    This gives TVA added flexibility to maintain a rate structure that produces
    adequate revenues to cover its costs.




    12
         See Inspection Report 2007-11401 – Review of TVA's Customer Relations Performance.
    13
         For neighboring utilities, all but TVA's average commercial rate was below the median when benchmarked
         or compared with other utilities for 2007.
    14
         One wheel is defined as a movement of power across intervening hubs with each hub counting as one
         wheel. CBOT® Electricity Futures and Options Reference and Applications Guide, ComEdSM and TVA
         Hub Electricity Futures and Options: The Reference and Applications Guide, page 12.
    Inspection 2007-11399                                                                             Page 16
     Office of the Inspector General                                                                 Inspection Report


 
 
 
 
                   Making Sound Capital Investments (2-3 Star)
 
 
 
 
     The electric utility industry is capital intensive and requires economic decisions
     regarding (1) building new generation to meet projected demands, (2) major
     capital improvements to meet environmental requirements, and (3) investing in
     existing assets that are aging and need regular upgrades to keep running.
     TVA's performance is fair in this area. In past years TVA has made certain
     investment decisions that did not pay off. For example, as is well known, TVA
  
     began a significant nuclear plant construction program in 1966 to meet projected
     system load growth that did not materialize. At the height of the construction
  
     program, TVA had 17 units under construction or in commercial operation at
     seven plant sites, but the construction program was largely abandoned over time
     due to the less-than-projected load growth. Current management did not make
     the decision to embark on this nuclear construction program and is seeking to
     make the most of capital projects that were not completed to derive future value
     for TVA's ratepayers. TVA is seeking to improve its capital investment decisions
     and the financial performance of its capital assets.
  
     Large Capital Investment Decisions Are Required
  
     The electric utility industry is a capital intensive one. TVA and other utilities are
     required to make many different capital investment decisions that are critical to
     their future success. Decisions must be made regarding new generation,
     environmental compliance, and maintaining and upgrading current assets.
 
     In recent years TVA has taken significant actions to provide power availability for
     the future by investing in nuclear and combustion turbine generation. TVA
 
     recently completed restoring BFNP Unit 1 to service which provides
     1,150 megawatts of baseload capacity at a cost of about $1.84 billion through
     September 2007.15 According to TVA management, completing the BFNP has
     added environmentally friendly base-load generation at significantly less cost
     than adding equivalent capacity from renewable energy sources or by building
     nuclear capacity from scratch. TVA estimates that it has avoided $800 million in
     purchased power costs since the Browns Ferry restart. TVA is also constructing
     the WBNP Unit 2 and studying the costs/benefits of constructing additional
     nuclear units at the BLNP site. To help meet peak demand needs, in 2007 TVA
     acquired combustion turbine facilities that collectively provide 11 units and
     1,296 megawatts of winter net dependable capacity.16 In addition, in
     September 2007 the TVA Board approved the acquisition and construction of a
     combined-cycle facility in southwest Tennessee. This facility, with an anticipated

     15
          Total project costs of $2.111 billion less allowance for funds used during construction of $269 million.
     16
          This represents the amount of power a plant can produce on an average winter day, minus the electricity
          used by the plant itself.
     Inspection 2007-11399                                                                                     Page 17
    Office of the Inspector General                                                              Inspection Report


    operation date of June 2010, is expected to have a planned winter net capacity of
 
    approximately 600 megawatts. Also, on April 3, 2008, TVA reported that it had
    agreed to purchase a three-unit, 810-megawatt combined-cycle combustion
    turbine facility for $461.3 million.17
 
    With respect to environmental compliance, TVA has also made significant
    investments. As of September 30, 2008, TVA reported that $5.1 billion has been
    invested to reduce emissions and plans to invest another $400 million through
    2010 for additional controls. In the decade beginning in 2011, TVA estimates
 
    spending an additional $3 billion to $3.7 billion on emission controls for
    conventional pollutants. This would bring TVA's investment in emission controls
    to over $9 billion. However, on July 11, 2008, a federal appeals court
 
    unanimously ruled that Environmental Protection Agency (EPA) overstepped its
    authority when it instituted the Clean Air Interstate Rule (CAIR). It was reported
    that a few electric companies opposed CAIR, but most favored it because it
    included cap-and-trade provisions related to emission credits. Now TVA possibly
    faces a new law or replacement regulation and possible carbon and mercury
    legislation.18
 
    TVA also faces accelerated capital spending for pollution controls on fossil plants
    as a result of a January 13, 2009, federal district court ruling on a lawsuit brought
    by the state of North Carolina. Among other things, the court ruled19 that TVA
 
    must accelerate its environmental mitigation spending in certain cases, by:
 
    •      Adding scrubbers and selective catalytic reduction systems (SCRS) at the
           John Sevier Fossil Plant by December 31, 2011, instead of the current
           planned timeframes of mid-2012 for the scrubbers and 2015 for the SCRS.

    •      Completing its plan to modernize the two existing scrubbers at Widows Creek
           and installing scrubbers and SCRS at Widows Creek Units 1-6 by
           December 31, 2013.

    In addition to the $0.8 billion TVA was already planning to spend, TVA estimates
    that the court actions will require accelerated spending of about $1 billion on
    John Sevier and Widows Creek scrubbers and SCRS through 2014.

    In addition, as a result of the Kingston fly ash spill, TVA could be required to
    significantly alter or stop using surface impoundments for combustion by-
    products. As TVA noted in its first quarter 2009 10-Q filing with the SEC, the
    Kingston spill resulted in interest by members of Congress increasing the
    potential that coal combustion by-products will be regulated, which could require

    17
         On top of the purchase price, TVA will pay $5 million to terminate an existing operation and maintenance
         agreement at the facility.
    18
         According to the 2009 10Q, EPA requested a rehearing of the case or, in the alternative, that the case be
         remanded without CAIR being vacated. On December 23, 2008, the D.C. Circuit granted the motion and
         ordered EPA to develop a new rule but allowed CAIR to remain in effect during this process, page 59.
    19
         TVA appealed the district court order on May 29, 2009, to the Fourth Circuit Court of Appeals.
    Inspection 2007-11399                                                                                 Page 18
    Office of the Inspector General                                                    Inspection Report


    additional capital spending by TVA. Even absent such regulation, TVA's
 
    response to the spill will likely include capital improvement spending at coal
    combustion by-product containment areas.
 
    TVA, like much of the electric utility industry, also faces large capital investments
    to keep an aging generating fleet operating. TVA operates (1) 59 coal-fired units
    with an average age of about 53 years, (2) 83 combustion turbines with an
    average age of about 25 years, (3) 29 power-producing dams with an average
    age of about 68 years, and (4) an aging transmission system. Significant
 
    resources will be needed to keep these aging assets operating.
 
    TVA currently estimates capital project spending to exceed $2 billion per year
 
    through 2011 and about $2.9 billion in 2012. The breakdown of project capital
    spending is shown in Figure 6 below. This table does not include the estimated
    accelerated capital spending for pollution controls on fossil plants as a result of a
    January 13, 2009, court ruling on a lawsuit brought by the state of North
    Carolina.
 
    Figure 6. Actual and Estimated Capital Expenditures1 for FYs 2008–2013.
 
                                       Actual Estimated Construction Expenditures
                                        2008   2009      2010      2011    2012             2013
    Watts Bar Unit 2                  $ 245 $      649 $    681 $    595 $    314             –
    Other Capacity Expansion              827      665      773      957    1,507            1,954
    Expenditures
    Clean Air Expenditures                277        232        223     440     475     608
    Transmission Expenditures2             98         32         45      34      40      41
    Other Capital Expenditures3           547        510        489     557     566     557
    Total Capital Projects            $ 1,9944 $   2,088 $    2,211 $ 2,583 $ 2,902 $ 3,160
    Requirements


    Source: TVA Form 10K Pursuant to Section 13, 15(d), or 37 of the Securities
            Exchange Act of 1934, for the FY ended September 30, 2008, page 65.

    Notes:
    1
      TVA plans to fund these expenditures with power revenues and proceeds from power program
      financings. This table shows only expenditures that are currently planned. Additional
      expenditures may be required for TVA to meet the anticipated growth in demand for power in
      its service area.
    2
        Transmission Expenditures include reimbursable projects. Transmission expenditures for
        capacity expansion or load growth are included in Other Capacity Expansion Expenditures.
    3
        Other Capital Expenditures are primarily associated with short, lead-time construction projects
        aimed at the continued safe and reliable operation of generating assets.
    4
        The numbers above exclude allowance for funds used during construction of $4 million in
        2008.




    Inspection 2007-11399                                                                       Page 19
    Office of the Inspector General                                                         Inspection Report


    TVA's ability to make needed investments will be a challenge given current
 
    projections and TVA's financing structure and legislative debt ceiling. TVA is not
    allowed to raise financing by issuing equity securities but instead must rely on
    operating revenues and debt financing. According to a 2003 federal study,20
    "from its inception in 1933 through fiscal year 1959, TVA received appropriations
    to finance its internal cash and capital requirements. However, in 1959 the
    Congress amended the TVA Act to authorize the use of debt financing. Under
    this legislation, the Congress ended the appropriations that had financed the TVA
    power program and required that TVA's power program be "self financing"
 
    through revenues from electricity sales. For its capital needs in excess of funds
    generated from operations, TVA was authorized to borrow by issuing bonds and
    notes. TVA's authority to issue bonds and notes is set by the Congress and is
 
    currently $30 billion."
 
    TVA's high credit rating is an advantage in financing these capital investments.
    In analyzing an electric utility, Standard & Poor's states that "a debt rating
    measures a company's financial position and its ability to repay debt. The
    Standard & Poor's ratings for a utility's debt securities are a good indication of a
    company's financial security." In its FY 2008 Form 10K, TVA management
 
    asserted that "TVA's rated securities are currently rated "Aaa" by Moody's
    Investors Service and "AAA" by Standard and Poor's and Fitch Ratings, which
    are the highest ratings assigned by these rating agencies. TVA's credit ratings
 
    are not based solely on its underlying business or financial condition which, by
    themselves, may not be commensurate with a triple-A rating. TVA's current
    ratings are based to a large extent on the body of legislation that defines TVA's
    business structure."




    20
         "Tennessee Valley Authority: Information on Lease-Leaseback and other Financing Arrangements," U.S.
         General Accounting Office, July 2003 (GAO-03-784), page 5.
    Inspection 2007-11399                                                                            Page 20
    Office of the Inspector General                                                                Inspection Report


    While TVA's rating is based largely on factors other than TVA's underlying
 
    financial condition, it does provide TVA with access to a lower interest rate for
    debt than available to most of its potential competitors. As shown by the latest
    data available to us, TVA has a credit rating superior to all of the eight potential
    competitors as shown in Figure 7.

    Figure 7. Credit Ratings of TVA and Eight Investor-Owned Utilities.
 
                               Standard and Poor's Credit Ratings21
                                                                Rating
                      Company                 Long Term                                    Short Term
                                                               Outlook
         Ameren Corp.                            BBB-           Stable                          A-3
         American Electric Power Co. Inc.         BBB           Stable                          A-2
         Dominion Resources Inc.                   A-           Stable                          A-2
 
         Duke Energy Corp.                         A-           Stable                          NR
         Entergy Corp                             BBB          Negative                          --
         Florida Power & Light Co                  A            Stable                          A-1
         Progress Energy Inc.                    BBB+           Stable                          A-2
         Southern Company                          A            Stable                          A-1
         Tennessee Valley Authority               AAA           Stable                           --
 
    Source: Developed by the OIG based on data from Standard & Poor's Web site.
 
    Certain Past Investment Decisions Did Not Pay Off
 
    TVA began a significant nuclear plant construction program in 1966 to meet
    projected system load growth that did not materialize. At the height of the
    construction program, TVA had 17 units under construction or in commercial
    operation at seven plant sites, but the construction program was largely
    abandoned over time due to the less-than-projected load growth.

    In 1982 and 1984, a total of eight units were canceled due to lower than
    expected load growth. By August 1985 TVA had delayed construction of two
    units each at Watts Bar Nuclear Plant and Bellefonte Nuclear Plant and had shut
    down the three-unit Browns Ferry Nuclear Plant and two-unit Sequoyah Nuclear
    Plant because of an increasing number of technical and operational problems. In
    November 2005, TVA canceled the construction of Units 1 and 2 at Bellefonte
    Nuclear Plant.

    TVA has made other poor investment decisions as well. For example, TVA
    incurred about $10.4 million in build-out costs related to the Highland Ridge
    Tower in Nashville. Initial occupancy of the building by TVA began in April 2000.
    21
         According to Standard & Poor's Rating Definitions dated December 1, 2008, Standard & Poor's assigns
         "dual" ratings to all debt issues that have a put option or demand feature as part of their structure. The
         first rating addresses the likelihood of repayment of principal and interest as due, and the second rating
         addresses only the demand feature. The long-term rating symbols are used for bonds to denote the long-
         term maturity and the short-term rating symbols for the put option (for example, "AAA/A-1+"), page 6.
         Also, A Standard & Poor's rating outlook assesses the potential direction of a long-term credit rating over
         the intermediate term (typically six months to two years). In determining a rating outlook, consideration is
         given to any changes in the economic and/or fundamental business conditions, page 11.
    Inspection 2007-11399                                                                                   Page 21
    Office of the Inspector General                                         Inspection Report


    TVA later incurred savings by leasing office space with less square footage.
 
    Savings were realized even though TVA's sublease rate was less than its lease
    rate per square foot. In addition, on April 1, 2002, TVA canceled a project for two
    500-megawatt combined-cycle turbines. At the time TVA abandoned the project,
    TVA had spent $154 million, or 44 percent, of around $350 million in estimated
    project costs. Also, TVA spent about $17.6 million during FY 2003 and about
    $35.4 million in total pursuing the Regenesys Project. The project was cancelled
    because, according to TVA, the company developing the flow-cell technology
    made a decision to close down all of its operations.
 
    TVA Seeking to Improve Capital Investment Decisions and Asset
    Performance
 
    In recognizing the importance of making sound investments in operating assets,
    TVA management has taken the position that investments in new capital projects
    and leases will be economically justified or needed to meet regulatory
    requirements, such as environmental compliance. Further, management has
    stated that new financial obligations will be paid down through revenue or
 
    savings generated from the investments they funded and that the financing
    obligations will be retired before the value of the associated assets is depleted.
 
    According to TVA, this should help ensure that financing obligations are
    manageable and commensurate with the associated assets.
 
 
    According to TVA management, to increase the effectiveness of the capital
    investment process, TVA has revised a standardized capital review and approval
    process for all projects which was enhanced to include standard project
    prioritization for all significant projects. In addition, they stated that TVA
    executive management develops capital spending targets for each business unit
    in conjunction with the annual business planning process.

    To measure performance toward these goals, TVA included debt-like obligations
    as a percentage of asset value as a Winning Performance measure for FY 2008.
    The goal of reducing debt-like obligations relates to TVA's strategic plan objective
    of increasing financial flexibility. Lowering the amount of debt-like obligations as
    a percentage of assets would produce a more flexible cost structure, allowing
    TVA to react more advantageously in the changing power market.

    This measure is identified as relating to three of the critical success factors that
    management feels are necessary to achieve TVA's strategic objective of,
    "Adhere to a set of sound financial guiding principles to improve TVA's fiscal
    performance.22" These critical success factors are:

    •      Apply sound economic and financing practices to new investments.
    •      Pay financing obligations before assets are fully depreciated.
    •      Strengthen TVA's balance sheet by improving the ratio of financing
           obligations to total assets.

    22
         TVA's 2007 Strategic Plan.
    Inspection 2007-11399                                                           Page 22
    Office of the Inspector General                                       Inspection Report


 
                                Containing Costs (2-3 Star)
 
 
    TVA is attempting to reduce certain costs to improve its financial position. Its
    performance is only fair in this area. For example, TVA fares poorly when
    compared to other electric utilities with respect to non-fuel O&M costs.
    Specifically, TVA benchmarking data shows that it is in the bottom third when
    compared to others in terms of non-fuel O&M costs. While TVA is seeking to
    reduce non-fuel O&M costs, it has made limited progress to date in doing so.
    TVA has also focused on reducing interest costs as a percentage of revenues in
    recent years and has made progress in doing so.
 
    TVA Seeks to Reduce Non-Fuel O&M Costs
 
    TVA considers improving its non-fuel O&M costs relative to other electric utilities
    to be a key means of improving its competitiveness and positioning it for future
    success. This is an important goal. Standard & Poor's notes that "an improving
    trend in operating and maintenance costs usually indicates that a company is
    focusing on streamlining its operations and controlling costs."
 
 




    Inspection 2007-11399                                                         Page 23
    Office of the Inspector General                                    Inspection Report


    Currently, however, TVA fares poorly when compared to its peers in this regard.
 
    Information provided by TVA's benchmarking group shows that TVA was in the
    bottom third of performance for the three-year period 2005–2007 as shown in
    Figure 8.
 
    Figure 8.

 
 
 
 
 
 
 
 
 
 
 
 




    Source: TVA Benchmarking Update, January 23, 2009, page 69.

    TVA management recognizes that O&M cost performance is in the bottom third
    and, in recent years, TVA has made a priority of seeking ways to operate more
    efficiently and save money in order to improve its non-fuel O&M costs in relation
    to other electric utilities. In the previous benchmarking study for 2004–2006,
    TVA's O&M cost performance was in the bottom quartile. Actions taken,
    according to TVA management, include establishing O&M spending targets for
    each business unit and identifying and focusing on specific areas where cost
    improvements are thought to be necessary. The goal of this effort is to put TVA
    in a better competitive and operational position. The 2007 TVA Strategic Plan
    states that it, "…intends to achieve top-quartile performance in non-fuel O&M
    expenses and limit the growth of these expenses to less than the growth in sales.
    Within three years TVA should achieve top quartile in non-fuel O&M expenditure
    performance. Achieving this goal will require TVA to reduce non-fuel O&M
    expenses relative to total generating capacity, megawatt-hour produced, and rate
    of sales growth. Meeting these goals will significantly affect TVA's ability to
    achieve certain critical success factors identified in the Strategic Plan."


    Inspection 2007-11399                                                      Page 24
    Office of the Inspector General                                     Inspection Report


    Figure 9, which was taken from TVA Benchmarking Update, compares total
 
    non-fuel O&M to MWh sold from 2000 through 2008. As shown, TVA's non-fuel
    O&M costs have relatively flattened out over the last three years, however, TVA's
    non-fuel O&M cost per MWh sales is greater than the median.
 
    Figure 9.

 
 
 
 
 
 
 
 
 
 
 
 


    Source: TVA Benchmarking Update, January 23, 2009, page 71.

    TVA management measured performance in O&M as part of its Winning
    Performance incentive plan in 2008. TVA believed that this measure focused
    attention on the most significant controllable component of TVA's total costs and
    that continued monitoring and controlling of these costs is key to remaining
    competitive and positioning itself for future success.

    In FY 2008, TVA achieved the low end of the range with respect to its non-fuel
    O&M Winning Performance cost reduction target. Reductions in certain areas,
    including cost savings achieved on normal O&M spending and specific O&M
    projects, were offset by increases in other areas, such as workers' compensation
    costs and unplanned outages necessitating O&M spending. TVA's adding
    non-fuel O&M as an incentivized measure to its FY 2008 Winning Performance
    metrics indicated a new focus on streamlining operations and controlling costs.
    The critical success factor associated with this item in the Strategic Plan is to
    "achieve top-quartile performance in non-fuel O&M expenses and then hold
    increases to be less than unit sales growth." However, we noted that non-fuel
    O&M is not an incentivized measure for FY 2009.




    Inspection 2007-11399                                                       Page 25
    Office of the Inspector General                                                      Inspection Report


    TVA Also Seeks to Reduce Interest and Other Financing Costs and Has
 
    Made Some Progress In Doing So

    In addition to non-fuel O&M costs, TVA focuses on interest costs as a means of
    assessing its financial performance. According to Standard & Poor's, interest
    payments are the electric utility industry's most significant non-operating expense
    because the industry is extremely capital-intensive. This can certainly be seen at
    TVA. TVA's interest expense was $1.376 billion in FY 2008 which represented
    13.25 percent of total revenues. While still very large, TVA's interest costs as a
 
    percentage of total revenue have decreased since 2000 when it was
    25.67 percent. This can be seen graphically in Figure 10 below. Because of its
    importance as a financial indicator, TVA tracks this measure as a performance
 
    indicator monthly in its Performance and Financial Report.
 
         Figure 10. TVA's Interest Expense as a Percentage of Revenues for the
                               Years 2000 Through 2008.
 
 
 
 
 
 




    Because of the importance of interest costs to the capital-intensive electric utility
    industry, an interest coverage ratio analysis is another way to assess financial
    performance. As stated in a TVA document explaining key financial issues,23
    "just as a person must make loan payments as scheduled, TVA must pay interest
    on its bonds and notes (debt) in order to avoid 'defaulting' on these obligations.
    'Interest coverage' is a measure of 'default risk,' or TVA's ability to pay the
    interest on its debt. Since interest is paid in cash, an interest-coverage ratio
    shows the number of times cash generated from operations exceeds total
    interest payments. For example, if TVA generated cash flow during the year
    equal to double what it paid out in interest on its debt, its interest-coverage ratio
    would be 2.0, or two times interest."


    23
         "Understanding How TVA Works: Meeting the Budget Head-On (Part 12 in TVA's Business Education
         Series)," August 2006.
    Inspection 2007-11399                                                                        Page 26
    Office of the Inspector General                                       Inspection Report


    To identify a peer group for comparison, we reviewed the utilities included in
 
    TVA's Regional Peer Panel identified in an April 2006 ScottMadden Study and
    TVA's Capacity Peer Panel identified in TVA's 2005 Federal Energy Regulatory
    Commission Form 1. After reviewing the two identified peer groups, we decided
    to choose the eight utilities that appeared in both groups to have a peer group of
    companies that compare to TVA based on both capacity and location.

    We compared TVA's interest coverage ratio to those of the eight other utilities.
    TVA tracks the interest coverage ratio monthly as a performance indicator in its
 
    Performance and Financial Report and has included in the Financial category of
    TVA's Winning Performance, the metric "Funds from Operations/Interest (Ratio)"
    which is a form of the interest coverage ratio. TVA's interest coverage ratio was
 
    lower than the other eight utilities for the four-year period 2005–2008, as shown
    in Figure 11 below.
 
    Figure 11. TVA's Interest Coverage Ratio Compared to Eight Other Electric
               Utilities for FYs 2005–2008.
 
 
 
 
 




    Source: Developed by OIG based on data in TVA documents and subject
            companies' SEC filings.

    However, because of the differences in financing structures, direct comparisons
    between TVA and investor-owned utilities (IOU) are imperfect. TVA finances its
    operations through debt and operating revenues and is legislatively prohibited
    from issuing equity securites. IOUs, in contrast, finance with equity securities in
    addition to debt and operating revenues. Thus, IOUs typically have financing
    costs comprised of both interest and dividends. TVA management stated that,

    Inspection 2007-11399                                                         Page 27
    Office of the Inspector General                                                                Inspection Report


    therefore, its interest coverage ratio would not be expected to be as high as that
 
    of an IOU.

    Another way to assess TVA is to look at total financing costs. That is, to
    compare TVA's interest costs to the interest and dividend costs of IOUs. As
    shown in Figure 12, a recent analysis by TVA shows that when dividends are
    considered, TVA's total financing expense, as a percent of revenues, is roughly
    comparable to that of peer, investor-owned utilities.
 
    Figure 12. Comparison of TVA's Interest Expense to the Interest Expense
               and Dividends for Selected IOUs (as a Percent of Revenues).
                                    Interest Expense & Dividends As a Percent of Revenues

         20.0%

                      Dividends
         17.5%
                      Interest Expense
                                                                                                      13.9%
         15.0%
                                                                     13.5%            13.6%
                                                     12.3%
         12.5%                       11.0%
                    10.2%
         10.0%
 
          7.5%


          5.0%


          2.5%


          0.0%
                    Entergy           AEP             TVA &          Progress        Southern          Duke
                                                   Distributors

    Source: TVA Data for Investor-Owned Utilities is for 2007 from their annual
            reports. Data for TVA distributors is for June 30, 2008. Data for TVA is
            for September 30, 2008. Includes interest expense on debt and
            common stock dividends paid.

    TVA management recognized that "one criticism of this type of comparison could
    be that the investor-owned, peer utilities are vertically-integrated, selling directly
    to retail consumers, whereas TVA is primarily a wholesaler."

    In addition to the above comparisons, as discussed in the "Making Sound Capital
    Investments" section above, TVA measures its performance in reducing debt-like
    obligations as a percentage of asset values as part of its Winning Performance
    incentive plan.24 This measure relates to cost containment as well as making
    24
         TVA's formula for calculating debt-like obligations as a percentage of asset value is (Statutory debt plus
         lease obligations plus prepaid energy obligations)/Total Assets.
    Inspection 2007-11399                                                                                     Page 28
    Office of the Inspector General                                                                                                                                            Inspection Report


    sound investment decisions. Reducing these obligations as a percentage of total
 
    assets would result in TVA having a larger asset base to generate revenue from
    which to make interest and lease payments. The components of TVA's targeted
    reduction in debt-like obligations include statutory debt, lease obligations, and
    prepaid energy obligations.25

    O&M and interest costs are important to consider in assessing TVA's cost
    containment performance. It is also important to note how TVA's rates, which are
    cost-based, compare to those of others. TVA's most recent retail rate benchmark
 
    data shows that its retail rates are just below the top quartile, as shown in
    Figure 13 below. For a more complete discussion of TVA's rates and how they
    compare to others, see our recent report on TVA's customer-stakeholder
 
    performance.26
 
    Figure 13. Retail Rate Benchmark Data.

                                                                                            Retail Rate Benchmark Data
                                                                                                2005-07 TVA w/DSI
 
                             11
 
                             10
                                                                                                                                                                    Industry
                                                                                                                                                                    Median = 6.99
 
                             9                                                                                                                                      Top Quartile = 6.17
                                                                                     Good                                                                           Top Decile = 5.45

                             8
               Cents / KWH




                             7
                                                                                                                                                  6.31

                             6


                             5


                             4


                             3
                                                   -A RK




                                                                                                                                                                                    UE
                                                                                                                                              E




                                                                                                                                                                        D
                                                                                                                                                              R
                                                                                                                  DO M

                                                                                                                            NA
                                                                    D




                                                                                                                                                                                  KYU



                                                                                                                                                                                         KPC

                                                                                                                                                                                               GPD
                                                                                             MP C
                                                                                        E
                                                                          AE
                                     -MS




                                                           CE I




                                                                                                        L




                                                                                                                                                                                                     APP
                                                                                                                                                  TV A
                                                                               PEC




                                                                                                            ALA




                                                                                                                                    O
                                           P EF




                                                                                     LG&



                                                                                                    FP &




                                                                                                                                          OG&



                                                                                                                                                         D- CA

                                                                                                                                                                  D- IN
                                                                      E




                                                                                                                                      C
                                                                  CO M




                                                                                                                         SCA




                                                                                                                                                                                REN
                                                                                                                                 NI PS
                                  ENT



                                                  ENT




                                                                                                                                                                            AME




    Source:                   TVA Benchmarking Update, January 23, 2009, page 5.



    25
         During 2002, TVA introduced an energy prepayment program, the discounted energy units (DEU)
         program. Under this program, TVA customers could purchase DEUs generally in $1 million increments,
         and each DEU entitles the purchaser to a $0.025/kilowatt-hour discount on a specified quantity of firm
         power over a period of years (5, 10, 15, or 20) for each kilowatt-hour in the prepaid block. TVA did not
         offer the DEU program after 2005.
    26
         See Inspection Report 2007-1140 – Review of TVA's Customer Relations Performance, pages 14-18.
    Inspection 2007-11399                                                                                                                                                                      Page 29
        Office of the Inspector General                                        Inspection Report


  
                                          Management Challenges
  
        TVA is subject to a variety of market risks that could negatively affect TVA's cash
        flows, results of operations, and financial risk. TVA is not alone in facing these
        types of risks and has disclosed them in SEC reports. In July 29, 2008, it was
        reported to the Finance, Strategy, Rates, and Administration Committee that
        financial highlights include (1) all business units are continuing to find additional
        operations and maintenance expense reductions and (2) significant progress has
        been made in reducing material weaknesses and deficiencies through SOX
        testing. However, financial hard spots as identified by the Chief Financial Officer
        include:
  
        •      Identifying ways organizations across TVA can operate more efficiently and
               save money to achieve non-fuel O&M targets, thus putting TVA in a better
               competitive and operational position.
  
        •      Cost increases in non-fuel expenses, as well as TVA's capital replacement
               and expansion program, make it difficult to keep increases below sales
  
               growth.
  
 
        •      Interest rates general and TVA-specific could rise.

        It also should be noted that approaching or reaching TVA's debt ceiling could
        adversely affect TVA's business by limiting TVA's ability to borrow money and
        increasing the cost of servicing TVA's debt.27 In addition, approaching or
        reaching this debt ceiling could lead to increased legislative or regulatory
        oversight of TVA's activities.

        It is important to note that TVA faces many significant management challenges
        in generating effective financial performance results. As discussed previously,
        recent events have negatively affected TVA financially. These include a wet coal
        fly ash spill at the Kingston Fossil Plant, a downturn in the economy causing
        declining power sales, a court ruling on a lawsuit brought by the state of North
        Carolina, and significant losses on accounts established to fund pensions and
        asset retirements.

        Key risks that could affect TVA's financial performance include those related to
        commodity prices, investment prices, credit, and the potential for interest rates to
        rise above today's historically low levels. While TVA's current retail rates are
        generally below market, as discussed in our first report in this series, and TVA
        has the authority to set its own rates and thus mitigate some risks by increasing
        rates, it is possible that partially or completely eliminating one or more of these
        risks through rate increases might adversely affect TVA commercially or

        27
             According to TVA's 2008 Form 10K.
        Inspection 2007-11399                                                          Page 30
    Office of the Inspector General                                        Inspection Report


    politically. In addition to managing the risks noted above, we believe capital
 
    requirement risk, taking into consideration the debt ceiling established by
    Congress, is a management challenge. TVA management also reports that a
    financial risk consideration is maintaining TVA's AAA credit rating.
 
    Rising Fuel and Other Commodity Prices

    As discussed in the first report in this series, prices of commodities critical to
    TVA's operations including coal, uranium, natural gas, fuel oil, emission
 
    allowances, and electricity have been extremely volatile in recent years. If TVA
    fails to effectively manage its commodity price risk, TVA's rates could increase
    and thereby cause customers to look for alternative power suppliers. Obviously,
 
    any further increase in these prices will have a negative effect on TVA's financial
    performance.
 
    Investment Price Risk
 
    TVA is exposed to investment price risk in its nuclear decommissioning trust, its
    asset retirement trust, and its pension fund. With regard to the nuclear
 
    decommissioning trust and the pension fund, a significant decrease in the value
    of these assets could require TVA to make substantial unplanned contributions to
    these funds. Unplanned contributions would impact cash flows and financial
 
    condition.
 
    Interest Rate

    Changes in interest rates could negatively impact TVA cash flows and financial
    condition. Today's historically low interest rates could rise in the future. As with
    other entities, higher interest rates could:

    •   Increase the amount of interest that TVA pays on new bonds that its issues.

    •   Decrease the value of the investments in the pension fund and trusts.

    •   Increase the loss on mark-to-market valuation of certain derivative
        transactions.

    According to management, TVA has taken several steps to address this risk. For
    example, TVA is working to balance the amount of its debt that matures in any
    given year, spreading maturities over time in order to reduce exposure to interest
    rate volatility. In addition, since interest rates are at historical lows, TVA is
    keeping a relatively high percentage of its debt in fixed rate securities. TVA also
    seeks opportune times to refinance debt, in some cases doing so before the due
    dates at advantageous rates.




    Inspection 2007-11399                                                          Page 31
    Office of the Inspector General                                        Inspection Report


    Credit Risk
 
    As cited in TVA disclosures, TVA is exposed to the risk that its counterparties will
    not be able to perform their contractual obligations. Failure of a counterparty to
    perform its obligations would adversely affect cash flows and financial condition.
    For example, we have noted that management is currently addressing the failure
    of a distributor to make timely payments in accordance with power contract
    terms.
 
    Capital Requirement Risk
 
    According to TVA management, the nature of the power industry requires large
 
    multi-year capital investments, and using trends and multi-year forecasts is
    important in assessing the effectiveness of management's decisions related to
    capital expenditures, pricing, and accessing capital markets.

    As shown in the "Making Sound Capital Investments" section above, TVA plans
    large capital investments in the future. It currently projects spending more than
    $2 billion per year through 2011 and about $2.9 billion in 2012 for property, plant,
 
    and equipment additions including clean air projects and new generation.
 
    While TVA (1) needs to increase generating capacity to meet demand taking into
 
    consideration the risks associated with further dependence on purchased power
    and (2) faces requirements for increased maintenance on its aging fleet, it is
    restricted in the amount it may borrow based on the $30 billion debt ceiling
    established by Congress. As of September 30, 2008, TVA had approximately
    $22.7 billion of bonds. TVA has a statutorily imposed ceiling of $30 billion on
    outstanding bonds.

    Approaching or reaching this debt ceiling could adversely affect TVA's business
    by limiting TVA's ability to borrow money and increasing the cost of servicing
    TVA's debt. TVA's stated cash management policy is to use cash provided by
    operations together with proceeds from power program borrowings and a
    $150 million note with the U.S. Treasury to fund TVA's current cash
    requirements. In addition, TVA has access to $2.25 billion of credit facilities with
    a national bank. In light of TVA's cash management policy, it is critical that TVA
    continue to have access to the debt markets in order to meet its cash
    requirements. The importance of having access to the debt markets is
    underscored by the fact that TVA, unlike many utilities, relies almost entirely on
    the debt markets to raise capital since it is not authorized to issue equity
    securities.

    Risk of Not Maintaining TVA's AAA Credit Rating

    As of September 30, 2008, all of TVA's bonds were rated by at least one rating
    agency except for two issues of power bonds and TVA's discount notes. TVA's
    rated bonds are currently rated "Aaa" by Moody's Investors Service and/or "AAA"

    Inspection 2007-11399                                                          Page 32
    Office of the Inspector General                                       Inspection Report


    by Standard & Poor's and/or Fitch Ratings, which are the highest ratings
 
    assigned by these agencies. As noted above, TVA's ratings are not based just
    on its underlying business or financial condition, but to a large extent on the
    legislation that designates TVA as a federal entity. A downgrade in TVA's credit
    rating could have material adverse effects on TVA's cash flows, results of
    operations, and financial condition as well as on investors in TVA securities.
    According to TVA management, among other things, a downgrade could have
    the following effects:
 
    •   A downgrade would increase TVA's interest expense by increasing the
        interest rates that TVA pays on new bonds that it issues. An increase in
 
        TVA's interest expense would reduce the amount of cash available for other
        purposes which could result in the need to (1) increase borrowings,
        (2) reduce expenses or capital investments, and/or (3) increase power rates.
 
    •   A significant downgrade could result in TVA having to post collateral under
 
        certain physical and financial contracts that contain rating triggers.
 
 
    •   A downgrade below a contractual threshold could prevent TVA from
        borrowing under two credit facilities totaling $2.25 billion.
 
    •   A downgrade could lower the price of TVA securities in the secondary market.
    In the event of shortfalls in cash resources, TVA has short-term funding available
    in the form of two short-term revolving credit facilities, one of which is a
    $1.25 billion facility maturing May 13, 2009, and the other of which is a $1 billion
    facility maturing November 9, 2009. The interest rate on any borrowing under
    either of these facilities is variable and based on market factors and the rating of
    TVA's senior unsecured long-term non-credit enhanced debt.

    According to TVA management, $31 million of the $54 million increase in net
    income from 2006 to 2007 for TVA was due to a lower net interest expense. This
    would not have been possible without TVA's excellent credit rating and,
    according to TVA management, by actively managing its debt portfolio to take
    advantage of lower average interest rates.




    Inspection 2007-11399                                                         Page 33
                                                                      APPENDIX 1
                                                                       Page 1 of 1

                     Objectives, Scope, and Methodology

The objectives of our financial performance review were to assess (1) how TVA
evaluates and tracks performance (i.e., performance measures), (2) whether
TVA's performance indicators correlate to annual performance goals and TVA's
Strategic Plan (i.e., alignment of performance measures), and (3) TVA's overall
performance (i.e., performance results). The scope of our review included any
measures used by TVA to track financial performance and industry best practices
regarding financial performance. To achieve our objectives, we:

•   Interviewed key TVA personnel to determine:

    – How TVA currently measures financial performance.
    – Whether TVA has implemented initiatives to improve performance.
    – Whether TVA currently benchmarks its financial performance.

•   Reviewed TVA's current strategic plan and performance goals to identify
    TVA's published strategic objectives, goals, and critical success factors.

•   Analyzed information obtained through research and from Chief Financial
    Officer personnel to determine (1) what measures TVA currently uses to track
    financial performance, (2) whether measures being used align with TVA's
    current strategic plan, and (3) how TVA is doing compared to the industry and
    the goals it set for itself.

    – We obtained documentation from key TVA personnel and/or TVA's Web
      site on TVA's financial performance, including third-party benchmarking
      data. Other data and information was obtained from various sources,
      including published documents and competitors' publicly available
      information.

This review was conducted in accordance with the Quality Standards for
Inspections.
APPENDIX 2
 Page 1 of 3
APPENDIX 2
 Page 2 of 3
APPENDIX 2
 Page 3 of 3
                                                                     APPENDIX 3
                                                                      Page 1 of 4


                TVA Management Comments on Draft Report
                       and the TVA OIG Response

Comments – Draft Financial Performance Measures Report
Inspector General Report on TVA Financial Performance
June 19, 2009

        Thank you for the opportunity to comment on the draft Financial
Performance Measures Report dated April 14, 2009. We appreciate the efforts
of the Inspector General to examine TVA's financial performance. More than
9 million people across seven states rely on TVA each day, and it is crucial that
TVA maintain financial health and sound performance.

Transparency and Accountability

       TVA is committed to conducting its operations in an open and forthright
manner that instills confidence in our customers, business partners, bondholders,
and the public. TVA is a profit-neutral enterprise owned by the American people
and does not have shareholders. In fact, TVA is the only wholly owned
U.S. Government agency that is required to file financial reports with the
Securities and Exchange Commission (SEC) of the type typically filed by
shareholder-owned companies.

        We willingly embrace this requirement because of the recognition that
providing information about TVA's operations and results is important given the
significant role TVA plays in the nation's energy infrastructure. Our reports are
consistent with SEC requirements and generally accepted accounting principles.
The benefit of SEC reporting is that the information necessary to evaluate and
compare TVA to other companies can be readily accessed from these reports in
a consistent format.

TVA OIG Response: We did not say in our report that TVA reports are
inconsistent with SEC requirements or guidelines or generally accepted
accounting principles. We believe our analysis and synthesis of available
financial information fills a gap for TVA stakeholders who do not routinely
read the information TVA provides to the SEC. As a public entity, TVA has
an inherent duty to accurately and plainly inform its stakeholders about its
financial condition. This entails more than merely doing what the law
requires in the way of disclosures to potential investors. In our view, most
members of Congress and the general public do not have the time to
decipher TVA's 10Q to the SEC. Our report is intended to make TVA's
finances more transparent to the Congress and the general public.
                                                                        APPENDIX 3
                                                                         Page 2 of 4

Financial Performance

       TVA management agrees with the Inspector General that financial
performance is a prime determinate of sustainable success. The Strategic Plan
for TVA set forth by TVA's Board of Directors provides the outline for a strong,
sustainable business structure that preserves TVA's ability to provide reliable,
competitively priced power for the Tennessee Valley.

       TVA is a healthier company today than it was in the past. TVA's ability to
carry debt has improved over the last decade as annual cash flow from power
operations has increased and interest expense has been significantly reduced.
TVA has also made a considerable effort to contain controllable costs. While the
prices of fuel, materials, and other inputs have escalated dramatically, TVA's
non-fuel operating and maintenance costs increased only modestly in the last
five years and have actually declined as a percentage of total costs.

       We are also managing financial risks in prudent ways. TVA has
maintained strong access to capital and low financing costs during the recent
global financial crisis; however, lines of credit with a national bank are in place as
a source of emergency financing should they ever be needed.

TVA OIG Response: Our report notes the reduction in TVA's interest
expense from 25.67 percent of revenues in 2000 to 13.25 percent in 2008.
With respect to non-fuel Operation and Maintenance (O&M) costs, the
analysis presented in our report, non-fuel O&M costs as a percent of MWh,
is the same one used by TVA management in benchmarking other utilities.
That analysis shows that TVA is in the bottom quartile on this metric. We
also state in the report that TVA's strategy for improving performance in
this regard is to reduce the growth in non-fuel O&M costs to less than the
growth in sales. To address management's comment, we have added
information to the report comparing non-fuel O&M costs to sales over the
period 2000 through 2008.

Making Sound Investment Choices

      We agree with the Inspector General that decisions made in the past
impact TVA today. Cancellation of partially finished units and plant shutdowns in
the 1980s, for example, left TVA with the burden of carrying certain
nonproductive assets and the associated debt. However, evaluations of TVA's
investment performance should be focused on more recent history.

       Results show that TVA's recent performance in making investment
decisions, including decisions involving legacy assets left over from prior
decades, has been sound. Over 4,000 megawatts of economical power
generating capacity have been added to the TVA power system over the past
five years. It is estimated that TVA's customers have saved between
$400 million – $1.2 billion (compared to the cost of power from other sources)
due to the restart and operation of Browns Ferry Unit 1 alone. Natural gas-fired
                                                                           APPENDIX 3
                                                                            Page 3 of 4

facilities added in 2007 and 2008 were purchased below new construction cost
and provide strategic value to TVA. Additionally, the completion of the second
unit at Watts Bar will further boost TVA's ability to provide low cost, reliable
power for the Valley for years to come.

        We believe that power demand will continue to grow over the long term in
the Tennessee Valley, and TVA must prepare for that now by continuing to add
new sources of clean energy and investing in the power system to keep it
reliable. Performance going forward should be measured by how management
deals with evolving conditions to achieve the best possible outcomes for TVA's
ratepayers.

TVA OIG Response: Our report clearly discusses how TVA management is
seeking to improve capital investment decisions and asset performance.
Specifically, we report that management's approach is intended to ensure
that capital investment decisions are economically justified or needed to
meet regulatory requirements. Further, we note that current management
has implemented a new standardized capital review and approval process.

Moreover, our report states that TVA recently restored Browns Ferry
Nuclear Unit 1 to service and, according to TVA management, completing it
has added base-load generation at significantly less cost than adding
capacity from renewable sources or from adding nuclear capacity from
scratch. In addition, our report discusses TVA's decisions to add
combined-cycle generation.

We understand management's point that they are trying to make the most
of these prior capital projects that were not completed. That does not
mean that the original investment decisions were sound. TVA has written
off billions of dollars in cost associated with capital expenditures, the latest
being the $3.9 billion related to Bellefonte Nuclear Plant.

Figure 6 in our report delineates planned capital expenditures through the
year 2013. Our report notes that the power industry requires large capital
investments and that one of TVA's future challenges is to balance the need
to make investments to meet the demand for power and maintain an aging
fleet of generation assets against TVA's debt ceiling.

Containing Costs

        We recommend that TVA be evaluated on a total cost basis and not primarily on
O&M costs. Since TVA's rates are on a cost basis, it is appropriate to utilize TVA's rates
to evaluate TVA's performance. As noted on page 29 of the report, recent retail
benchmark data shows that retail rates are just below the top quartile, indicating that
TVA has done a good job at containing costs.
                                                                        APPENDIX 3
                                                                         Page 4 of 4

       TVA continues to focus on containing costs, including improving its non-fuel O&M
costs. TVA's FY 2009 Winning Performance metrics include net cash flow, of which
non-fuel O&M is a component.

TVA OIG Response: It is true we do consider non-fuel O&M costs
important, as do others. For example, (1) TVA management considered
them important enough to launch a major effort to reduce those costs, and
(2) Standard & Poor's, in assessing the electric utility industry, considers
O&M costs important.

Moreover, our report includes an analysis of TVA's retail rates and how
they compare to a selected peer group. While we recognize that TVA fares
relatively well in this retail rate comparison, we don't believe this should be
weighted as heavily as management's comments seem to suggest. TVA, as
a nonprofit entity, does not have to build a profit component into its
revenue requirements.
